  DEPARTMENT OF HOMELAND SECURITY

      Office of Inspector General

      Challenges Remain In Executing the
      Department of Homeland Security’s
       Information Technology Program
          For Its Intelligence Systems

            Unclassified Summary




OIG-08-48                             April 2008
                       1
                                                                      U.S. Department of
                                                                      Homeland Security
                                                                      Washington, DC 20528




                            Office of Inspector General
        Challenges Remain In Executing the Department of Homeland Security’s
             Information Technology Program For Its Intelligence Systems
                                   OIG-08-48


We evaluated the security program and practices for the Department of Homeland
Security’s Top Secret/Sensitive Compartmented Information systems according to
Federal Information Security Management Act requirements. We focused on the security
program management, implementation, and system administration of the department’s
intelligence activities.

The objective of our evaluation was to determine whether the department is properly
protecting Top Secret/Sensitive Compartmented Information and the systems that support
the department’s intelligence operations and assets. We assessed the effectiveness of the
information systems security controls for the department’s intelligence systems, and the
remediation of the findings that we reported as a result of our Fiscal Year 2006
assessment. Fieldwork was conducted from June through October 2007, at the following
organizational components: Office of Intelligence and Analysis, Transportation Security
Administration, and United States Immigration and Customs Enforcement.

Much progress has been made in establishing an enterprise-wide information technology
security program that supports the department’s intelligence operations and assets. The
Office of Intelligence and Analysis, formally established to implement the security
program for the department’s intelligence systems, is taking an active role in the
management and governance of the security for intelligence systems across the
department. Procedural and operational issues, however, remain regarding the
effectiveness of the implementation of the department’s intelligence security program and
system controls. Furthermore, the department has not yet fully addressed the issues and
recommendations that we reported in Fiscal Year 2006.

To better manage and execute the responsibilities regarding the department’s information
technology security program for its intelligence systems, we recommended that the
Under Secretary for Intelligence and Analysis, through the Director, Information Sharing
and Knowledge Management, issue formal guidance for the department’s intelligence
activities and establish an information systems’ security education, training, and
awareness program for intelligence personnel. We also recommended that the Office of
the Chief Information Officer address the system control issues that we identified during
                                           (2)

our review. Department of Homeland Security management officials agreed with our
findings and advised that they are taking actions to address the recommendations in our
report. (OIG-08-48, April 2008, IT)
Additional Information and Copies
To obtain additional copies of this report, call the Office of Inspector General (OIG) at
(202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web site at
      Additional
www.dhs.gov/oig  . Information and Copies

    To obtain additional copies of this report, call the Office of Inspector General
OIG Hotline
      (OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG
      weballeged
To report site at www.dhs.gov/oig.
                  fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations:
      OIG Hotline
   • Call our Hotline at 1-800-323-8603;
   • TFax
        o report  alleged fraud,
            the complaint         waste,
                             directly     abuse
                                      to us      or mismanagem
                                            at (202)  254-4292; ent, or any other kind of
   • Email us at DHSOIGHOTLINE@dhs.gov; or
     c riminal  or  noncriminal   misconduct    relative to department programs or
   • operations:
       Write to use at:
          •DHSCall  the OIG
                Office        Hotline General/MAIL
                        of Inspector  at 1-800-323-8603;STOP 2600, Attention:
          •Office
              Faxofthe complaint   directly to us  at (202)
                     Investigations - Hotline, 245 Murray   254-4292;
                                                              Drive, SW, Building 410,
          •Washington,
              Email us at   DHSOIGH
                          DC 20528,     OTLINE@dhs.gov       ; or
          •   Write to DHS Office of Inspector General/MAIL STOP 2600, Attention:
The OIG seeks Office  of Investigations
                 to protect  the identity–of
                                           Hotline,  245 Murray
                                             each writer          Drive, SW, Building 410,
                                                           and caller.
